U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Angel Manuel Ortiz-Diaz v. United States of America, et al.
S.Ct. No. 20-1735

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 11,
2021, and placed on the docket on June 18, 2021. The government’s response is due on July 19,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1735
ORTIZ-DIAZ, ANGEL MANUEL, ET AL.
USA, ET AL.

SARAH GRACE MCCORD
LIBERTY JUSTICE CENTER
208 S.LASALLE ST.
STE. 1690
CHICAGO, IL 60604
SMCCORD@LIBERTYJUSTICECENTER.ORG
FELIX ROMAN CARRASQUILLO
ROMAN & ASSOCIATES
P.O. BOX 9070
SAN JUAN, PR 00908
939-640-9226
J. MICHAEL CONNOLLY
ANTONIN SCALIA LAW SCHOOL
SUPREME COURT CLINIC
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD., SUITE 700
ARLINGTON, VA 22209
7032439423
MIKE@CONSOVOYMCCARTHY.COM
TYLER R. GREEN
CONSOVOY MCCARTHY PLLC
222 S. MAIN STREET
5TH FLOOR
SALT LAKE CITY, UT 84101
703-243-9423

EDWIN PRADO-GALARZA
PRADO, NÚÑEZ & ASOCIADOS
403 DEL PARQUE ST.
SUITE 8
SAN JUAN, PR 00912
787-977-1411

